SDepartment                                         of Energy
                              Washington, DC 20585
                                March 13, 2007


 MEMORANDUM FOR T              DEPUY SECRETARY

 FROM:                     rego      neman
                         Inspector General

 SUBJECT:                Audit Report on "Federal Managers' Financial Integrity Act"
                         Audit Report No.: OAS-L-07-09

 We reviewed selected aspects of the Department of Energy's implementation of the
 FederalManagers' FinancialIntegrity Act (FMFIA) of 1982. FMFIA requires that
 agencies establish internal control and financial systems to provide reasonable assurance
 that the integrity of Federal programs and operations is protected. Furthermore, it
 requires that the head of the agency provide an annual assurance statement on whether the
 agency has met this requirement and whether any material weaknesses exist. In response,
 the Department developed a program for evaluating the adequacy of internal controls and
 determining whether they conform to the principles and standards established by the
 Office of Management and Budget and the Government Accountability Office. The
 results of these evaluations and other information provided by senior management are
 used to determine whether there are any material weaknesses.

 As a result of its evaluation of internal controls, the Department identified "Significant
 Issues" that represent what it considers to be the most important issues it faces. The
 evaluation also identified corrective actions the Department is taking to mitigate those
 challenges. Our most recent Special Report: Management Challenges at the Department
 of Energy (DOE/IG-0748, December 2006), incorporates most of the issues identified by
 the Department and more fully describes our views on its most serious challenges and
 efforts to address them.

 The objective of our audit was to determine whether the Department's Fiscal Year (FY)
 2006 evaluation of internal controls was carried out in a reasonable and prudent manner
 and adequately disclosed detected waste or other reportable problems.

 RESULTS OF AUDIT

 Overall, the Department's FY 2006 evaluation of internal controls was carried out in a
 reasonable manner and generally disclosed known instances of reportable problems. Not
 all organizations, however, conformed to the requirements of the Department's internal
 control program and/or Federal policies. Specifically:

      *As we noted in previous years, the National Nuclear Security Administration
       (NNSA) continues to employ a process that does not conform to the Departmental
       directive governing the FMFIA effort. Similar to issues we identified in our
       FY 2005 review, the FY 2006 Assurance Memorandum submitted by NNSA did

                                  Printed with soy ink on recycled paper
                                %Vink
       not discuss whether the organization's review identified any reportable problems.
       In addition, while NNSA is responsible for eight of the Significant Issues
       identified by the Secretary in the 2006 Performance and Accountability Report, in
       its Assurance Memorandum, NNSA did not include corrective action plans for
       any of the Significant Issues. Significant Issues are the most important matters
       requiring resolution by the Department and include areas such as oversight of
       contractors, security, and safety and health. Adequate disclosure of planned
       corrective actions is fundamental to open recognition and proper reporting of
       problems as required by the Department's internal control program. These same
       issues were noted in our prior year FMFIA review of NNSA. In commenting on
       this report, NNSA officials agreed that they do not conform to the directive and
       indicated that they employ a separate process that is more responsive to the needs
       of the Administrator. According to the Departmental directive, however, NNSA
       remains responsible for compliance,

   *   The Richland Operations Office did not submit corrective action plans for two
       prior year reportable problems on design basis threat and information technology
       for which remedial actions remain incomplete. Richland indicated that it has a
       corrective action plan for information technology but that it was not included with
       Richland's Assurance Memorandum. Richland also indicated that it was waiting
       for additional direction from Headquarters on how to report the design basis threat
       issue. In addition, the Naval Petroleum Reserve at Casper, Wyoming, did not
       conduct its required financial management system review. These same
       nonconformances were noted in our FY 2005 FMFIA review.

   *   While timeliness and completeness of reporting had improved since last year,
       problems remain. Sixteen Departmental elements (down from 25 in FY 2005) did
       not submit their Assurance Memoranda in time to meet established deadlines.
       Additionally, eleven Headquarters and two field elements did not include all items
       required for Assurance Memoranda. Specifically, the Memorandum did not
       include statements addressing the areas that were considered during the evaluation
       and whether or not any reportable problems were identified, omitted or were not
       adequately addressed.

SUGGESTED ACTIONS

Current Department policies and guidelines clearly delineate management's
responsibilities for establishing and maintaining adequate internal control programs.
Where there is recurring nonconformance, additional direction may be necessary to
ensure compliance with established requirements. Accordingly, we suggest that:

    1. The Acting Administrator, NNSA; Manager, Richland Operations Office; and the
       Director, Naval Petroleum Reserve, disclose all planned corrective actions and
       conduct financial management system reviews in accordance with current policies
       and guidelines; and,



                                             2
   2. Heads of Department elements emphasize the necessity for complying with the
      Department's internal control program requirements related to accuracy,
      timeliness, and completeness.

No recommendations are being made in this report and a formal response is not required.
We appreciate the cooperation of the Office of Chief Financial Officer and various
Departmental elements that provided information or assistance.

Attachment

cc: Acting Under Secretary of Energy
    Under Secretary for Science
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison Team, CF-1.2




                                           3
                                                                                       Attachment

SCOPE AND METHODOLOGY

The Department of Energy's (Department) evaluation of its internal controls was
examined for compliance with the FederalManagers'FinancialIntegrity Act (FMFIA) of
1982, the Government Accountability Office's "Standards for Internal Control in the
Federal Government," Office of Management and Budget Circulars A-123 and A-127,
and Department Order 413.1A, "Management Control Program." The results of the
Department's evaluation of internal controls are included in the Department's Fiscal Year
(FY) 2006 Performance and Accountability Report. This report provides critical financial
and program performance information in a single report as authorized by the Reports
Consolidation Act of 2000 and addresses a number of significant issues faced by the
Department.

Our review was made in accordance with generally accepted Government auditing
standards and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy our objective. Accordingly, we assessed
internal controls regarding the FMFIA reporting process. Because our review was.
limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our evaluation. We assessed the FY 2006 Performance and
Accountability Report as it relates to FMFIA, along with supporting documentation filed
by selected Departmental organizations, to determine whether the results of their
evaluations were accurately reported. Also, we performed work to determine whether the
Department developed corrective action plans for significant issues identified during its
FY 2006 FMFIA reporting process. We did not rely on computer-processed data to
accomplish our audit objective.
